NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




           PURCHASE CARD
              REVIEW


       OIG-02-09    August 14, 2002




          _______________________

          WILLIAM A. DeSARNO
       ACTING INSPECTOR GENERAL
                      TABLE OF CONTENTS
                                                                      PAGE

EXECUTIVE SUMMARY                                                      1

BACKGROUND                                                             3

OBJECTIVES, SCOPE and METHODOLOGY                                      10

REVIEW RESULTS                                                         11

    No Evidence of Abuse with NCUA Government Issued Purchase Cards    11

    Internal Controls Over Usage Need to be Strengthened               11

    Card Management Issues Should Be Addressed                         18

OTHER MATTERS                                                          24

    Policies and Procedures                                            24

    Training                                                           25

APPENDIX A – RECOMMENDED INTERNAL CONTROLS FOR                         26
PLACING ORDERS
                            EXECUTIVE SUMMARY


Recent reports by the General Accounting Office and Offices of Inspectors General, as
well as congressional correspondence, have raised serious concerns over the adequacy of
internal controls over the use of government credit cards. Reports of fraudulent and
unauthorized expenditures have exposed a widespread pattern of abuse involving
government contractor- issued travel and purchase cards. As a result, the National Credit
Union Administration (NCUA) Office of Inspector General (OIG) performed a review of
NCUA’s SmartPay Visa purchase card program. The objective of this review was to
determine if there is any abuse of the NCUA purchase cards. A similar report on
NCUA’s travel card program will be issued shortly.

NCUA has 32 open purchase card accounts. All six regional offices and several central
offices have at least one purchase card. We reviewed purchase card transaction activity
for 31 purchase cards (the OIG purchase card was excluded from this review) for the
period from June 2000 through November 2001.

A judgmental sample of 122 transactions for 26 purchase cards was selected for review.
We did not identify any abusive purchases using the NCUA Visa purchase cards.
However, we did identify several weaknesses in purchase card internal controls and
management.

Specifically, we found that purchase card policies and procedures are not comprehensive.
In this regard, we found that purchase card policies and procedures are derived from
various sources; including verbal (non-documented) guidance, memoranda, NCUA
Instructions, and ad hoc cardholder office forms. While there are some basic internal
controls in place, we observed that actual controls varied from office to office, and in
most offices there were instances of non-compliance with those controls. Some examples
of internal control weaknesses are:

   •   Eleven of 17 regional office transactions (including AMAC) did not have
       documentation that someone, other than the cardholder, initially authorized a
       purchase;
   •   Six of nine central office cardholders did not have vendor invoice/statements
       authorized for payment by either their respective office director or the Contracting
       Officer;
   •   Neither regional nor central offices had vendor competition documentation or a
       contracting officer competitive waiver for purchases over $5,000, as required;
   •   Thirteen of 26 purchase cards had at least one purchase without purchase
       supporting documentation; and




                                            1
   •   The Office of Chief Financial Officer (OCFO) made vendor payments and
       expense cost reallocations on vendor statements that were not authorized for
       payment.

Moreover, we identified three former NCUA employees who had open purchase card
accounts. Additionally, half of the current open purchase card accounts had assigned
Agency/Organization Program Coordinators (AOPCs) who were no longer in an
oversight position for those cardholders.

This report offers ten recommendations to improve controls over the purchase card
program. Comments from NCUA’s Office of the Chief Financial Officer are included in
the body of the report after each recommendation.




                                           2
                                 BACKGROUND


BANK OF AMERICA CONTRACT

In 1998, NCUA contracted, through a GSA contract, with Nations Bank (now Bank of
America) to provide Visa purchase cards to select NCUA employees. The purpose of the
purchase card program is to streamline the procurement process for small purchases.

The Bank of America (BOA) purchase card features:

A purchase card ‘hierarchy” is a Bank of America reporting and organizational structure
that the agency uses to establish its monitoring program. The hierarchy defines:
    • Account reporting group (which accounts report to whom);
    • AOPC access rights (which accounts are under a particular AOPC); and
    • Account authorization controls (what vendor and spending control limits are
        established for a particular group of accounts).

Purchase card hierarchies (account groupings) may have certain spending limit and
vendor controls established on all cards in that hierarchy. These controls can be dollar
limitations or particular type of vendor limitations. Spending control options are:
    • Spending limit per cycle (a dollar spending ceiling per billing cycle);
    • Single purchase limit (a dollar spending ceiling per purchase);
    • Velocity limits by day, month, or cycle (a dollar spending ceiling by time frame);
        and
    • Merchant category code restrictions (a type of vendor by BOA codes; for instance
        restaurants may be code 5812).

Another feature of the BOA purchase card is on-demand card activation/deactivation
which is available through the credit card vendor.

Bank of America system management reports are available to the agency AOPCs through
an on- line reporting system. There are three general types of reports available:
    • Standard – examples include delinquency reports, account activity reports, and
         statistical summary reports; and
    • Ad hoc/Customized – these are customized designed reports using the vendor’s
         database of information.




                                           3
The Agency/Organization Program Coordinator (AOPC) is responsible for:
   • Understanding and communicating to cardholders, NCUA’s policies and
      procedures for official government purchases;
   • Maintaining point of contact (from BOA) information for NCUA;
   • Specifying present card authorization limits (dollar and merchant code
      restrictions); and
   • Activating optional services and new cardholders.

A purchase cardholder is responsible for:
   • Using the account for purchase of goods and services as specified in the GSA
      master contract and the NCUA task order; and
   • Understand the NCUA’s policies and procedures regarding definition of
      authorized purchases, record keeping, and reconciliation of monthly statements.

The Designated Billing Office is responsible for:
   • Ensuring centrally billed purchase accounts are correct for payment; and
   • Properly processing invoices for payment and in accordance with the Prompt
      Payment Act.

Bank of America is responsible for:
   • 24 hour seven days a week customer service; and
   • Electronic purchase card transaction data and reporting.

Bank of America has established the following general guidelines for purchase card use:
   • Cardholders are responsible for using the card for purchases of government
      related products and services as specified in the GSA master contract and
      NCUA’s task order. Failure to adhere to the contract and task order, may result in
      permanent revocation of the card, notification of the situation to management and
      further disciplinary measures as dictated by NCUA policy;
   • NCUA defines authorized purchases. Personal purchases are prohibited;
   • The cardholder is the only person who may use the card;
   • The cardholder is responsible for retaining all charge slips, register receipts, etc.
      and follows the NCUA policies and procedures for reconciliation, approval, and
      allocation of transactions. The cardholder is to maintain an audit trail for all
      purchases, per NCUA guidelines; and
   • The cardholder requests changes to the account in accordance with NCUA
      policies and procedures.




                                            4
NCUA PURCHASE CARD PROCESS, POLICIES AND PROCEDURES

We interviewed NCUA staff regarding the practices of the purchase card program. We
also observed practices through our review of purchase card documentation. Some of the
observed practices are not provided in documented policies and procedures. Therefore,
we refer to them as Undocumented NCUA policy and procedures.

On the other hand we reviewed all agency policies and procedures regarding purchase
cards and procurements. We refer to these as documented policies and procedures with
the appropriate agency reference.

Below is a listing of the purchase card policies and procedures by process (card issuance,
card usage, card payments, card cancellation, and program monitoring)

Card issuance
   • Office or Regional Director request purchase cards from the Director Office of
       Administration
   • Director Office of Administration approves/disapproves card issuance
   • Contract Specialist notifies BOA for approved requests
   • BOA establishes account and mails card to cardholder
   • No known formal training for cardholders
   • OA to retain documentation for the above
   • Director of OA has authority to approve sign and issue procurement documents
       (with authority to redelegate per Instruction 1770.11, (PRO 2)
   • Director of OA is authorized to sign all agency procurement documents and may
       appoint a designee to act in his stead (Instruction 1770.11)
   • Regional Directors (RDs) and Asset Management and Assitance Center (AMAC)
       President are authorized to approve, sign and issue purchase orders and Blanket
       Purchase Agreements (BPAs) up to $10,000 per order (PRO 9)
   • RDs and AMAC President have authority to sign and issue POs and BPAs up to
       $10,000 per order for goods or services other than ADP hardware and software
       (Instruction 1770.11)




                                            5
Card usage
   • Cardholder is the only one authorized to use card
   • Cardholder to retain documentation for the above
   • For purchases between $5,000 and $10,000, the contracting officer shall obtain
       competitive price quotes (verbal or written) from a reasonable number of vendors
       (Instruction 1770.11)
   • Cards (central office) have a $5,000 limit for single purchase and $25,000
       monthly limit. They can be used to purchase goods. Any purchase requiring
       exceptions to policy or waiver must have prior written approval of the contracting
       officer. (Director of OA memo dated 10/21/99)
   • Each region may establish its own procedures for requesting that goods and/or
       services (sic) be bought using the purchase card. However, at a minimum,
       requests must be submitted in writing or via e-mail.(Bulletin 1770B)
   • Cardholders obtain e- mail approval from their Office Director (OD) with vendor
       name, products to purchase, item cost, total cost and other vendors surveyed if
       any. OD will approve or disapprove using request e- mail and forward copy to
       OA Mail. After receiving approval cardholder will order item (OCIO Purchase
       Card Policy and Procedures)
   • For central office employees: If an OD approves a request (listing goods or
       service requested with approximate cost and proposed vendor), then this is
       forwarded to OA Mail. After clearing with the budget officer, the OA contract
       specialist will place the order (Bulletin 1770B)
   • Purchase cards have a $25,000 limit and can be used for anything a purchase
       order can be used for, except: airfares, other forms of transportation, contracts
       awarded from a formal solicitation, and anything over $25,000 (Bulletin 1770B)
   • All central office deliveries go to central receiving and all regional deliveries to
       the Regional Office (RO). (Instruction 1770.11)




                                            6
Card payments
   • All purchase cards are centrally billed with NCUA liable for purchases
   • Office of Chief Financial Officer receives all purchase card statements and makes
       payments, debiting clearing accounts for each cardholder account
   • Cardholders receive statements, code the expense/asset accounts for purchases
       and authorize payment. Office/regional directors approve payment and forward
       to OCFO for reallocation of expense/asset account distribution from their
       respective clearing accounts
   • OCFO to retain documentation for the above
   • CFO is authorized to make payments for goods and services (PRO 5)
   • For regions, the RD or Assistant Regional Director for Operations (ARDO)
       approves invoices for payment. For the central office, the Contracting Officer
       approves invoices for payment (Bulletin 1770B)
   • Cardholder reviews credit card statement for accuracy and certifies for payment.
       Cardholder then forwards statement to contracting officer through OD.
       Contracting Officer is to review and approve statement and forward to OCFO for
       payment (OCIO Purchase Card Policy and Procedures)
   • Offices will process original invoices received for credit card purchases and
       training classes for which there are no purchase requisition/order and no goods
       receipt, by approving them for payment and forwarding them to OCFO. Invoices
       will be reviewed by OCFO to ensure the required receipt of goods has been
       posted in the accounting system and approved by authorized staff. (Instruction
       02020.04)
   • OCFO must rely on all offices to provide documentation that attests to the
       propriety and correctness of payments to be made. All invoices will be approved
       by NCUA employees responsible for receiving and examining such goods or
       services. (Instruction 2145.2)

Card cancellation
   • For the Central Office, Office of Human Resources (OHR) notify OCFO and send
       cards which are cut up
   • Regions (for regional staff) notify OCFO and send cards which are cut up

Program monitoring
   • Delinquency reports




                                          7
NUMBER OF CARDS ISSUED

There are 32 open purchase cards. The distribution of open purchase cards is as follows:

OFFICE/REGION               # CARDS                 SINGLE(S),           MONTHLY
                                                     DAILY(D)       PURCHASE LIMIT
                                               PURCHASE LIMIT
Region I                        2                   $10,000 (D)                 $25,000
Region II                       4                    10,000 (D)                  25,000
Region III                      3                    10,000 (D)                  25,000
                                2                    10,000 (D)                  50,000
Region IV                       1                    10,000 (D)                  25,000
                                1                    10,000 (D)                  50,000
Region V                        2                    10,000 (D)                  50,000
Region VI                       2                    10,000 (D)                  50,000
                                1                    10,000 (D)                  25,000
AMAC                            3                    10,000 (D)                  25,000
Subtotal                       21

OCFO*                           1                      10,000 (S)                 50,000
                                1                      10,000 (S)                 25,000
                                1                      10,000 (D)                 25,000
OHR**                           1                      10,000 (S)                 50,000
OCIO                            3                      10,000 (D)                 25,000
OGC                             1                      10,000 (D)                 25,000
                                1                       5,000 (S)                 25,000
OCCU                            1                       5,000 (S)                 25,000
OIG                             1                       5,000 (S)                 25,000
Subtotal                       11

Total                          32


AMAC = Asset Management and Assistance Center
OCFO = Office of Chief Financial Officer, Division of Procurement and Facilities Mgt.
* Formerly the Office of Administration
OHR = Office of Human Resources, Division of Training and Development
** Formerly the Office of Training and Development
OCIO = Office of Chief Information Officer
OGC = Office of General Counsel
OCCU = Office of Corporate Credit Unions
OIG = Office of Inspector General




                                           8
ESTIMATE OF DOLLAR USAGE

The dollar amount (annual total, monthly average, high month, and low month) of
transactions for 2001 were as follows:

OFFICE/REGION              TOTAL         MO. AVG.         MO. HIGH          MO. LOW
Region I                   $38,683         $3,224            $6,827              $901
Region II                   71,283           5,940           22,118               798
Region III                 120,741         10,062            23,585             2,552
Region IV                  107,672           8,973           14,824             2,948
Region V                    34,318           2,860            6,958               709
Region VI                   50,952           4,246           14,409               742
AMAC                        81,681           6,807           10,059             4,516
Subtotal                  $505,330        $42,111

OCFO                       102,654              8,554          18,234             4,955
OHR                        186,146             15,512          36,711             4,124
OCIO                        61,160              5,097          38,991               388
OGC                         25,304              2,109           5,741                55
OCCU                        18,248              1,521           3,914                 0
OIG                          3,817                318             954                 0
Subtotal                  $397,329            $33,111

Total                     $902,659            $75,222




                                          9
               OBJECTIVES, SCOPE and METHODOLOGY


OBJECTIVES

   1. To determine if there is any abuse of NCUA purchase cards
   2. If any abuse is discovered, determine the extent of such abuse and if the abuse is
      systemic

SCOPE

This review was of limited scope and was performed in accordance with generally
accepted government auditing standards. We did not review supporting documentation
for all potentially misused charges and we assumed all hotel charges were for legitimate
official business. The following was the scope of the review:

   •   Reviewed purchase card charges on Bank of America monthly statements for
       100% of NCUA purchase cards during the period from June 2000 through
       November 2001.
   •   Reviewed OCFO purchase card payments and supporting documentation from
       June 2001 through December 2001.

METHODOLOGY

Our review criteria for particular transactions were judgmentally selected based upon
dollar amount, “unusual” vendor name, and/or “unusual” vendor code. We reviewed
supporting documentation for 122 transactions on 26 purchase cards.

   •   Interviewed NCUA staff and BOA officials;
   •   Reviewed NCUA policies and procedures;
   •   Reviewed BOA purchase card program documentation;
   •   Reviewed listings of all past due, suspended, cancelled or charged-off accounts;
   •   Reviewed separated employee open charge card accounts;
   •   Reviewed purchase card holders who had “red flag” closed accounts;
   •   Reviewed purchase cardholder profiles; and
   •   Reviewed card usage for unusual activity (100% cards)
           o Unusual vendors
           o High dollar (over $5000) amount per transaction
           o Unusual items not normally needed by office or region.




                                           10
                               REVIEW RESULTS


NO EVIDENCE OF ABUSE WITH NCUA GOVERNMENT ISSUED PURCHASE
CARDS

There are 32 open purchase cards. All six regions, AMAC and six central offices have
open purchase cards. We reviewed 31 purchase cardholder accounts for transaction
activity for the period from June 2000 through November 2001. See BACKGROUND
for a listing of open purchase cards. We identified “potentially” abusive transactions
during this review and then judgmentally selected 122 transactions for 26 cardholders.
We contacted and requested supporting documentation for each of these transactions
from the 26 cardholders. In addition, we requested vendor payment supporting
documentation from OCFO for the months from June 2001 through December 2001.

Our review of the requested documentation did not identify any abusive purchases made
with the NCUA Bank of America issued purchase credit cards. However, we did identify
some weaknesses in purchase card internal controls and card management issues, which
are discussed below.

INTERNAL CONTROLS OVER USAGE NEED TO BE STRENGTHENED

We identified the following basic internal control system:

   1. Purchase request/authorization;
   2. Purchase supporting documentation (order confirmation, invoice, packing slip
      etc);
   3. Payment authorization; and
   4. Vendor competition, if required (transactions over $5,000).




                                            11
INTERNAL CONTROLS IN PLACE

The following are internal controls that we “observed” in the course of our review of
requested documentation from cardholders. A “yes” indicates that at least one of the
reviewed transaction had this internal control. A “no” indicates that none of the
reviewed transactions had this internal control.

Region             Order          Invoice            Payment      Competed        Number of
Office           Authorized        and/or           Authorized   (if over $5k)   Transactions
                                Packing slip                                      Reviewed
RI                   No             Yes                Yes           N/A              2
RI                   No             Yes                Yes           No               9
RII                 Yes*            Yes                Yes           No               3
RII                  No             Yes                Yes           N/A              3
RIII                 No             Yes*               Yes           N/A              2
RIII                No**            Yes                Yes           N/A              2
RIII                 No             Yes*               Yes           No               6
RIII                 No             Yes                Yes           N/A              4
RIV                  Yes            Yes*               Yes           N/A              3
RIV                  Yes            Yes*               Yes           N/A              9
RV                   No             Yes                Yes           N/A              2
RV                   No             Yes*               Yes           N/A              7
RVI                  No             Yes*               Yes           N/A              3
RVI                 Yes*            Yes*               Yes           N/A              6
AMAC                 No             Yes                Yes           N/A              4
AMAC                Yes*            Yes                Yes           No               3
AMAC                Yes*            Yes                Yes           N/A              3

OA                  Yes*            Yes*               No            N/A               9
OA                  Yes             Yes*               No            No                3
OA                  Yes*            Yes*              Yes*           N/A               5
OTD                 Yes*            Yes*               No            No               19
OCIO                Yes             Yes                No            N/A               3
OCIO                Yes              No                No            N/A               3
OCIO                Yes             Yes*               No            N/A               3
OGC                 Yes             Yes               Yes*           N/A               3
OCCU                Yes             Yes               Yes*           N/A               3
Totals                                                                               122
         Yes          15             25                20             20
         No           11              1                 6              6
         N/A

*        Had at least one exception to control
**       Cardholder stated this is a Regional Office card, which he does not use


                                               12
Policy and procedures

Regions
NCUA Bulletin 1770B, dated July 15, 1999:
   • “Each region can establish its own procedures requesting that goods and/or (sic)
       be bought using the purchase card. However, at a minimum, requests must be
       submitted in writing or via e- mail.”
   • “RD or ARDO approve invoices for payment”

Central Offices and AMAC
NCUA Bulletin 1770B:
   • If an Office Director approves a request (listing goods or service requested with
       approximate cost and proposed vendor) then this document is forwarded to OA
       Mail. After clearing with the Budget Officer, the OA contract specialist will
       place the order.
   • The Contracting Officer approves invoices for payment.


Purchase request/authorization

Regions
Of the 14 regional purchase cards reviewed, we observed 10 that did not have any
requests to purchase in writing. In addition, two regional cards had one instance each
where there was no written request to purchase. Region IV has established a good
purchase request/authorization document, which could be a model for universal
application.

Central Offices and AMAC
Of the 12 purchase cards we reviewed, one card did not have any purchase
request/authorizations (four transactions) in writing. Five of the remaining 11 cards (nine
transactions) had at least one transaction that did not have prior written order
authorization. This amounted to 13 out of 62 total central office transactions reviewed.
Note: All but two central office purchase cards are held by staff other than OA contract
specialists, contrary to policy that only contract specialists place central office purchase
card procurements.


Purchase supporting documentation

Regions
All of the regions had documentation to support the majority of their actual purchases
(order confirmation, invoices, packing slip). However, seven of 14 cardholders had at
least one transaction where this documentation was lacking: This amounted to nine out
of 60 regional transactions reviewed.




                                            13
Central Offices and AMAC
One of the 12 purchase cards reviewed did not have any supporting documentation (three
transactions). Five of the remaining 11 purchase cards reviewed had at least one
transaction with an exception to supporting documentation (eight transactions).


Payment authorization

Regions
All regional transactions reviewed had proper payment authorizations. In other words,
the RD or ARDO had documented written payment authorization on their respective
regional purchase card monthly statements. However, when a transaction is neither
initially requested/authorized from someone other than the cardholder and there is a lack
of purchase supporting documentation, a payment authorization is lacking in proper
support. This creates the risk that a statement is paid for transactions which may have not
been authorized. This scenario occurred in seven reviewed transactions.

Central Offices and AMAC
Six of the 12 purchase cards reviewed did not have any authorized payment approval (40
transactions). Three of the remaining six purchase cards had at least one exception to
proper authorization approval. For these latter three cards, the same individual who
approved the order, also approved the card statement for payment. The majority of
central office payment approvals were not made by the Contracting Office, contrary to
policy as stated in Bulletin 1770B. Rather, many of the central office payment approvals
either had no payment approval signature or the signature was by the cardholder.

For example, in December 2001, out of six total central office purchase card statements:

   •   One statement was approved by the Acting Contracting Officer;
   •   Two statements were approved by Deputy Office Directors; and
   •   Three statements had no approval signature or were signed by the cardholder.




                                            14
Vendor competition

Regions, Central Offices and AMAC
We reviewed nine transactions over $5,000. In all nine cases, there was no documented
evidence that the transaction was competed or that a waiver to competition was obtained.

OFFICE/REGION                    AMOUNT DESCRIPTION                  COMMENT
Region I                           $6,038 NCUA logo shirts           Per cardholder –
                                                                     other regions used
                                                                     vendor
Region II                             6,200 SSP training             Per SSP – training
                                                                     specific to vendor
Region III                            6,774 Two projectors           Only one
                                                                     competitive quote
Region III                            9,976 Chairs
AMAC                                  6,343 Legal Subscriptions
Div. Procurement &                    5,940 16 Palm Pilots           Ordered prior to
Facilities Mgt                                                       Contract Officer
                                                                     approval
Div. Training and                     6,000 Leadership               IDP signed by
Development                                 Develop. Training        supervisor and Dir.
                                                                     OTD
Div. Training and                     6,978 Software training        IDP signed by
Development                                                          supervisor and Dir.
                                                                     OTD
Div. Training and                     7,269 Software training        IDP signed by
Development                                                          supervisor and Dir.
                                                                     OTD



IDP = Individual Development Plan
OTD = Office of Training and Development, now Div. Training and Development

Note that four of the nine transactions were for training. Per Delegated Authority HR6,
Regional Directors, President of AMAC and Office Directors have the authority to
approve, request and authorize training. However, it is unclear whether this is restricted
by procurement policies for obtaining competitive vendors for procurements over $5,000.

FINDING 01:

NCUA lacks a comprehensive purchase card internal control system. Compliance with
internal controls, currently in place, was not consistently followed within offices or
regions.



                                           15
RECOMMENDATION 01:

The Contracting Officer and the OCFO should establish a comprehensive internal control
structure and monitor this structure for compliance. See APPENDIX A – Recommended
Internal Controls for Placing Orders and OTHER MATTERS – Policies and Procedures.

OCFO RESPONSE: OCFO disagreed with our conclusion that NCUA lacked a
comprehensive purchase card internal control system. OCFO pointed out that the
purchase card internal control system was established by the former Office of
Administration, which was organizationally placed within OCFO during January 2002.
However, OCFO agrees with the recommendation. OCFO has determined that the
former practice of having the cardholder authorize the allocation of charges to the
respective cost centers and accounts was not a valid form of internal control. OCFO
now requires that the Office/Regional Director, or their designee, approve all charge
card statements prior to allocation of expenses. In addition, the NCUA Procurement
Manual is currently being rewritten. This will remove the inconsistencies with the NCUA
Bulletin 1770B, dated July 15, 1999, and NCUA Instruction 2020.04 dated May 14, 1998,
both prepared by the former Office of Administration.

OIG RESPONSE: We believe the evidence presented supports our conclusion. It is our
understanding that the internal control weaknesses will be addressed in the rewritten
Procurement Manual.

OCFO VENDOR STATEMENT PAYMENTS

Prior to June 2001, purchase cardholders received their respective credit card statements.
They coded the statements for expense categories and obtained authorization to pay. The
coded and authorized statements were mailed to the OCFO for payment. However, under
this process, vendor statements were not being paid timely. Therefore beginning in June
2001, all purchase card vendor statements were mailed directly to the OCFO. These
statements are paid prior to regional or central office director and cardholder review. The
OCFO pays the vendor and an offsetting debit is made to a clearing account for each
cardholder. The vendor statements are then forwarded to the respective regional/central
office to identify the appropriate expense category and obtain payment approval
authorization. The region or central offices forward the annotated and payment
authorized statements, without supporting documentation, back to the OCFO. The OCFO
then performs an adjusting journal entry to remove the charges from the respective
clearing accounts and charges the appropriate expense accounts designated by the regions
and central offices.

NCUA’s written policies have not been revised to reflect current practices initiated in
June 2001, as described above. For example:

NCUA Bulletin 1770B, dated July 15, 1999 states:
  o The RD or ARDO approve regional invoices for payment; and
  o The Contracting Officer approves central office invoices for payment



                                            16
NCUA Instruction 2020.04 dated May 14, 1998 states:
  o Offices will process original invoices for credit card purchases by approving them
     for payment and forwarding them to OCFO.

We reviewed the OCFO payment process for the months of June 2001 through December
2001. As shown below, over one quarter of all statements paid during this period were
lacking proper authorization:

MONTH                                 NUMBER OF                    NUMBER OF
                                     STATEMENTS                 STATEMENTS WITH
                                      REVIEWED                   AUTHORIZATION
                                                                  EXCEPTIONS*
May 2001                                    21                         2
June 2001                                   19                         2
July 2001                                   20                         7
August 2001                                 17                         6
September 2001                              18                         6
October 2001                                18                         6
November 2001                               21                         8
December 2001                               19                         5

       Totals                              153                             42

*      Statement not signed or initialed by Regional Director, Office Director or
Contracting Officer

In several instances, the cardholder was the only approval signature on the statement. In
other instances, there was no signature at all on the vendor statements.

FINDING 02:

The OCFO does not always comply with internal policies for payments of purchase card
invoices. Paying purchase card invoices without proper regional or office director
approval and not having any invoice supporting documentation (purchase authorization,
purchase receipt etc), increases the risk of making improper vendor payments.

RECOMMENDATION 02:

The OCFO should ensure that all proper vendor invoice/statement supporting
documentation is present before reallocation of clearing accounts. This supporting
documentation may be stored in the respective cardholder region or office.
Documentation should consist of:

       1. Order request/authorization;
       2. Purchase supporting documentation; and
       3. Payment authorization


                                            17
OCFO RESPONSE: The OCFO agrees with the finding and recommendation. Also,
OCFO recommends that the monthly purchase card consolidated statement be forwarded
to the Director of Procurement Facilities Management monthly to ensure that all
purchase card transactions conform to NCUA’s procurement policies. This review would
be completed after the monthly statement has been paid and each charge applied to the
appropriate cost center and account classification.

CARD MANAGEMENT ISSUES SHOULD BE ADDRESSED

CARDHOLDER ISSUANCE

According to NCUA Bulletin 1770B, there are two purchase cards held by Office of
Administration (now Division of Procurement and Facilities Management) staff members
and, while the number regional cards vary, each region has at least two cards.

FINDING 03:
NCUA policy and actual practice are not consistent. There are eight purchase cards in
the central office outside of the Division of Procurement and Facilities Management. In
addition, the Division of Procurement and Facilities Management has three purchase
cardholders. It is also unclear, whether Office Directors have delegated procurement
authority. Per Instruction 1770.11 7.f., “central office directors and the president of CLF
(Central Liquidity Facility) have not been delegated procurement authority.” But
according to Instruction 1770.11 7.b., “NCUA’s primary contracting officer…is
authorized to sign all agency procurement documents, and may appoint a designee to act
in his stead.”

RECOMMENDATION 03:
The policy regarding whether central office staff, other than the Contracting Officer, have
procurement authority should be clarified. In addition, the Contracting Officer should
review the dollar volume of activity of cardholders to determine a reasonable dollar credit
limit for purchase cards and consequently, the number of cards that need to be issued.
See BACKGROUND – Estimate of Dollar Usage.

OCFO RESPONSE: The OCFO agrees with the finding and recommendation. OCFO
stated that the policy for making and paying purchase card transactions is currently
being rewritten.

FINDING 04:
Purchase cardholders have a substantial line of credit ($25,000 to $50,000 per month) and
NCUA is liable for all cha rges on the purchase cards. We identified several NCUA
purchase cardholders who had past government credit card “red flags” on their accounts.
The following is a list of current purchase cardholder past “red flags”
   o Two cardholders had purchase cards closed due to security reasons (unable to
       determine reason)




                                            18
   o One cardholder had an individually billed travel card closed due to security
     reasons (unable to determine reason)
   o One cardholder has an individually billed travel card which is past due
   o One cardholder had an individually billed travel card cancelled due to non-
     payment

RECOMMENDATION 04:
Review, at least annually, potential new cardholders and current cardholders for
government (purchase or travel) card red flags and determine if the risk of the red flag
warrants the staff person continuing as a purchase cardholder. This review should be
documented in writing.

OCFO RESPONSE: The OCFO agrees with the finding and recommendation. The
OCFO believes that the monthly dollar limits for the purchase cards should be revised.
The Office of the Chief Technology Officer, the Division of Training and Development
and the Division of Procurement and Facilities Management should have the higher
limits of $50,000, and all other offices should be limited to $25,000. Since the amounts
now charged are directly posted to the office/regional office budgets, there is no
indication that the current limits are exceeded or there is a control problem. Also,
OCFO agrees that the annual review of all “red flags” is appropriated to reduce any risk
to NCUA.

AOPC DESIGNATION

FINDING 05:
Agency/Organization Program Coordinator (AOPC) designations are outdated. Sixteen
current accounts list the AOPC as an individual who is no longer the Regional Director
for the cardholder’s region or the Contracting Officer for the central office.

RECOMMENDATION 05:
The OCFO should periodically review AOPC designations and make revised AOPC
designations, as appropriate, in a timely fashion.

OCFO RESPONSE: The OCFO agrees that the finding is correct. The designations of
former RD’s and Contracting Officers have not been valid for over two years. After
implementation of the purchase card program, the regional offices decided that they did
not need AOPC access. The AOPC remained inactive on the database as a decision of
the contracting bank. However, the OCFO believes that monitoring of the purchase card
accounts is performed through monthly reviews of purchase card statements. The OCFO
agrees with the recommendation and will designate the Director of Facility Management
Services as the AOPC on all purchase card accounts.




                                            19
ACCOUNT DOLLAR and MERCHANT CODE LIMITS

Account Dollar Limits
There are three purchase card account groupings (hierarchies) in use at NCUA. Each of
the three has different dollar limitations. However, all three have the same merchant
code (types of vendors, i.e. restaurants) restrictions. See BACKGROUND – Number of
cards issued for detail of the dollar limitations by card.

The first hierarchy has 26 purchase cards with a $10,000 daily limit. Seven of these cards
have a $50,000 cycle (monthly billing) limit and 19 have a $25,000 cycle limit. In other
words, the cardholders can make purchases up to $10,000 per day and up to $25,000 or
$50,000 per month, respectively.

The second hierarchy has three purchase cards with a $10,000 single purchase limit. Two
of these cards have a $50,000 cycle limit and one card has a $25,000 cycle limit. In other
words, the cardholders can make individual purchases up to $10,000 each and can make
purchases up to $25,000 or $50,000 per month, respectively.

The third hierarchy has three cards with a $5,000 single purchase limit and $25,000 cycle
limit. In other words, these cardholders can make individual purchases up to $5,000 and
$25,000 per month.

FINDING 06:
During our review, we noted that every transaction (nine) over $5,000 was in non-
compliance with competition or waiver to competition policy and procedures. In
addition, it does not appear that the $50,000 cycle limit is warranted. All purchase cards
have a $25,000 or $50,000 monthly spending limit. During 2001, only two offices had
any single month with purchases exceeding $25,000.

RECOMMENDATION 06:
We recommend that all purchase cards have a $5,000 single purchase limit and that the
cycle limit be reviewed to reflect reasonable usage patterns.

OCFO RESPONSE: OCFO agrees that all credit card purchases over $5,000 for items
not purchased from the General Services Administration (GSA) Federal Supply Schedule,
Government Wide Access Contracts must conform to NCUA’s policy and procedures
regarding competition in the market place. However, OCFO told us that since all the
purchases noted in the OIG’s report were off the GSA schedule, they were properly
competed as required. OCFO also believes that the $25,000 to $50,000 monthly
spending limits are appropriate based upon needs and functions of the various offices. It
is currently the initiative of the Administration to encourage more use of purchase card
transactions to streamline government efficiency and reduce costs.

OIG RESPONSE: The OIG was not furnished with any evidence that any of the
“exception” transactions were purchased from the GSA schedule. The OCFO
conclusion that all of the transactions were purchased from the GSA schedule was based



                                            20
upon verbal assurances. OCFO assured us that it would require documented evidence in
the future for GSA schedule transactions over $5,000.

Merchant Code (MCC) Restrictions
Merchant code restrictions can be placed on purchase cards and provide an additional
internal control against misuse. These merchant codes identify like kinds of vendors.
For instance, veterinary services are merchant code 0742. By placing a merchant code
restriction on code 0742, the restricted purchase card can not be used to procure
veterinary services.

Bulletin 1770B, dated July 15, 1999 states:
Purchase cards can be used for anything except
   o Airfares and other forms of transportation
   o Contracts awarded from a formal solicitation
   o Purchase of goods and services over $25,000

Current merchant code restrictions on purchase cards include:
   o All airlines, except code 4511 (Airlines Air carriers)
   o Wire transfer money orders
   o Utilities
   o Financial institutions (cash disbursements, merchandise services/convenience
       checks)
   o Betting – Including lottery, gaming chips, track wagers
   o Intra company purchases

FINDING 07:
Purchase cards are not restricted to other forms of transportation such as rental cars,
railways, taxicabs, bus lines, cruise lines and boat rentals. In addition there are many
merchant codes, on NCUA purchase cards, which are not restricted but seem unlikely to
be needed for official purposes, such as:
    o Veterinary services 0742
    o Marinas Marine supplies 4458
    o Travel agencies and tour operators 4722
    o Package tour operators 4723
    o Motor vehicle supplies and new parts 5013
    o Cigar stores and stands 5993
    o Pet shops 5995
    o Swimming pools 5996
    o Non-financial institution Foreign currency 6051
    o Securities brokers dealers 6211
    o Insurance 6300, 6381, 6399
    o Trailer parks and campgrounds 7033
    o Beauty shops and barber shops 7230
    o Funeral services 7261
    o Dating and escort services 7273
    o Tax preparation service 7276



                                           21
   o   Massage parlors 7297
   o   Truck stop transactions 7511
   o   Motor home and recreational vehicle rental 7519
   o   Automotive shops 7531-7549
   o   Motion pictur e theatres 7832
   o   Dance halls studios and schools 7911
   o   Theatrical producers 7922
   o   Bands, orchestras 7929
   o   Billiard, pool and bowling 7932, 7933
   o   Amusement Parks 7996
   o   Country clubs 7997
   o   Aquariums 7998
   o   Elementary and secondary schools 8211
   o   Child care services 8351
   o   Political organizations 8651
   o   Religious organizations 8661
   o   Automobile associations 8675
   o   Bail and bond payments 9223

RECOMMENDATION 07:
The OCFO should consider expanding the use of merchant code restrictions after
considering the purpose and intended use of NCUA’s purchase cards.

OCFO RESPONSE: The OCFO agrees with the finding and recommendation.

IMPROPER OPEN ACCOUNTS

FINDING 08:
We identified three former employees who had open purchase card accounts. However,
no activity was posted on these cards subsequent to their separation from NCUA. We
forwarded these names to OCFO for action.

RECOMMENDATION 08:
At least annually, the NCUA should match all purchase cardholders to a current NCUA
employee roster. Any discrepancies should be reviewed and resolved. Additionally, the
NCUA should review the separated employee process (policy, procedures, controls) for
reliability.

OCFO RESPONSE: The OCFO agrees with the finding and recommendation. The cards
for the three separated employees have been cancelled by OCFO. Purchase cards are
issued to offices for authorized purchases, and carried one or more individual’s name.
When the individual(s) leave or transfer, the card remains in the office, and can be used
by another individual in the office. A name on a purchase card is a matter of formality
and does not serve as a personal liability or limitation. There is a certain amount of
turnover for ownership of the card, particularly in the regions, and there has not been
consistent notification to change card ownership.



                                           22
OIG RESPONSE: Notwithstanding OCFO comments, Bank of America Cardholder
Procedures – General Information and Guidelines, state -“Use by anyone other than the
approved cardholder is strictly prohibited”.




                                         23
                                OTHER MATTERS

POLICIES AND PROCEDURES

FINDING 09:
As discussed above, internal control policies and procedures are not comprehensively
defined. We observed through our review a myriad of policy and procedure documents.
These ranged from Delegated Authorities, NCUA Instructions and Bulletins to
memoranda and ad hoc office forms. This has produced a non-comprehensive, disjointed
and sometimes contradictory guidance. For instance:

Non-comprehensive
   • Documentation for card issuance and card usage is not discussed in any of the
      written guidance we reviewed. The guidance leaves unstated, what office or staff
      persons should retain documentation evidencing requests for cards, and granting
      of such requests? Also left unanswered is, which office or staff person should
      retain supporting documentation for purchases?
   • Staff responsibilities are not clearly defined. That is who is authorized to request
      that a particular cardholder make a specific purchase?
   • For regions “at a minimum requests must be submitted in writing or via e- mail.”
      Who is authorized to submit requests and to whom do they submit them?
   • Training and qualifications are not discussed for responsible staff

Disjointed
   • Policy states that the Contracting Officer approves all Central Office purchase
       card statements for payment, yet practice is that Office Directors or cardholders
       themselves approve purchase card statements for payment.
   • It is unclear what criteria is used to determine credit limits for particular credit
       cardholders.
   • It is unclear why certain merchant code restrictions were established on the
       purchase cards; while other merchant codes with obvious non-governmental
       procurement use were retained.
   • Having each region determine its own purchase card policies and procedures.

Contradictory
   • Does having central office staff, other tha n the Contracting Officer, make and
      approve credit card purchases, contradict procurement delegations of authority?
   • Does the delegation of authority to order training for staff fall under procurement
      competition policies?




                                            24
RECOMMENDATION 09:
The agency should draft a procurement policy and procedure manual. This should be
comprehensive by including all types of procurements (contracts, purchase orders, credit
cards etc); appropriate laws and regulations; Board delegated authorities; staff duties
responsib ilities; training required; internal control structure(s); work processes and
methods of performing procedures/processes (identified software and procedures, forms
etc). Updates should be forwarded to all responsible staff and then incorporated into the
manual in a timely fashion. Specifically for purchase card procurements, the agency
needs to clearly define delegated authorities; card issuance, usage and cancellation
procedures; restrictions; training; documentation retention; and internal controls.

OCFO RESPONSE: OCFO agrees with the finding and recommendation.

TRAINING

FINDING 10:
NCUA provides no training regarding purchase card policies and procedures.
Cardholders are mailed a BOA pamphlet when their card issued to them. It is uncertain
what procurement training is provided to persons authorizing purchases, persons
approving payments and AOPCs. There are no training or qualification requirements
noted in NCUA purchase card policies.

RECOMMENATION 10:
We recommend that upon completion of a more comprehensive guide to purchase card
policy and procedures, that the OCFO conduct an in- house training session for all staff
with purchase card responsibilities (issuance, purchase authorization, cardholder,
payment authorization, monitoring, cancellation etc). Any new staff person, assigned
purchase card duties should be required to undergo appropriate training. The training
provided should be documented and the individual certified as having taken the course(s).

OCFO RESPONSE: OCFO agrees with the finding and recommendation.




                                           25
     APPENDIX A – SUGGESTED INTERNAL CONTROLS FOR
                     PLACING ORDERS

Below is an OIG suggested internal control structure for use of credit cards when placing
orders (card usage).

The work process and responsible staff for a request to purchase (Order Authorization) is:
   o Staff person “A”, perhaps a division director or deputy, places a request to
      purchase.
   o The written request is sent to the cardholder (Staff person “B”)
   o The request should be in writing and identify, the item(s), estimated cost,
      proposed vendor or vendors, and budget code to be charged.

The work process and responsible staff for Placing an Order is:
   o Staff person “B” is the cardholder, perhaps someone with purchase requisition
      duties and training, places the order following the above Order Authorization.
   o Staff person “B” obtains and retains an order confirmation (if available), invoice,
      and/or a packing slip (if available) for the order placed.
   o Staff person “B” notifies staff person “A” when the order has been placed.
   o Staff person “B” receives the ordered item and notifies staff person “A” when the
      item has been received (unless it is an accountable item, in which case it follows
      already established policy and procedures).
   o Staff person “B” prepares the cost allocation (general ledger codes) on the vendor
      statement.

The work process and responsible staff for Payment Authorizations is:
   o Staff person “C” is the regional/office director and approves purchase card
      statements for payment.
   o Staff person “C” approves payment of vendor statements after reviewing the
      above documentation (order authorization, placing order).
   o Staff person “C” forwards the approved statement and all supporting
      documentation to the OCFO for payment

The work process for Payment of statements is:
   o The OCFO follows the current policy of making payments upon receipt of vendor
      statements.
   o The OCFO reviews each vendor statement and all attached documentation and
      approvals (order authorization, placing order, payment authorization) for payment
      approval.
   o The OCFO, after the above review, prepares the cost reallocation (general ledger
      codes) from clearing accounts to the appropriate expense/asset accounts.

For orders over $5,000:
   o No purchase card orders over $5,000 should be allowed via single purchase limit
       of $5,000 on all purchase cards.


                                           26
NOTE: Staff persons A, B and C should be different designated staff. Each of them
should also have an alternate.




                                          27
